                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

1   Case Number: I0605001 1                                                        11       Page i of 1       11
                We initiated an investigation after receiving an allegation that                  submitted
         false representations to NSF during communicationsto transfer a Phase I1 Small Business Innovation
         Research (SBIR) award from the original Phase I SBIR awardee to her new company. Our
         investigation substantiated the allegation and we recommended that NSF terminate the Phase I1
         award and debar              and her company for three years. (Attachment 1)

                In response to our recommendation, NSF terminated the Phase 11 award and debarred
                and her company for three years. (Attachment 2 and Attachment 3)

                Accordingly, this case is closed.
   'EZSS'ZSS $$ '3's.ns ' ~ 3 h3 e ~a p 6 pur: uopeursojuI jo uropaasd aq3 sapun 310dq d ~ u o~ S N
ap!slno pasopsrp aq dew pue 310~ S aqj      N J O hsadozd aq3 s! u o d a x u o g a g s a ~ uleguapguo3
                                                                                              ~        s y ~ ,
                               Executive Summary

Allegation        Material false representations made by                  to NSF
                  caused NSF to award a Small Business Innovation Research (SBIR)
                  Phase I1 grant to             company,                  .

                             is the owner of          and had been the Vice President,
                  Director of Technolow. and 25% owner of the Phase I awardee.
                  .                                       had also been the principal
                  Investigator (PI) on the Phase I SBIR award t    o    .

OIG
Investigation     NSF awarded a $500,000 SBIR Phase I1 award to                 based in
                  material part on               claim that          was a "spin-off' of


                                                                               =
                  .           Our investigation revealed that          was not a "spin-
                  off' of ,           and that all communications and claims by
                               that         was a "spin-off' or associated with
                  were false.       ,


                  NSF program managers confirm that                 would not have
                  received the award but for the claims that      was a "spin-off' of
                  .         When it learned the truth, NSF terminated the award and
                             appealed the termination. NSF upheld the termination.
                  Because                made material false statements to the
                  government, we referred the matter to the Department of Justice
                  (DOJ).

DOJ
Assessment        DOJ declined criminal prosecution because of the difficulty of
                  proving          criminal intent beyond reasonable doubt. DOJ
                  also declined to pursue a civil fraud action because of her financial
                  inability to pay, on the understanding that NSF has strong
                  administrative remedies available such as debarment.

OIG
Assessment                    willfully made multiple false statements to NSF about the
                  Phase I1 proposal.                            -

OIG
Recommendation Based upon the facts described herein, OIG recommends debarment
               of both           and          for 3 years.
I.     Factual Background

       O n January 23,       ,,                         in ,                  submitted a
Small Business Innovation Research (SBIR) Phase I proposal' to NSF, listing
         as PI and the President of                  as the Authorized Organization
Representative (AOR). O n June 24,           , NSF awarded an SBIR Phase I grant to
.         O n May 24,       ,         submitted the Phase I final report and stated that a
Phase I1 proposal would be submitted.

                  was having financial difficulties. In May         ,


                                                                                   =
payments because of a cash flow shortage-in a May 26 email,
            , "we are b r ~ k e . "During
                                   ~       June and July      , the            , including
            , discussed the future of the NSF Phase I1 proposal, and on June 28 a
officer sent an email to                , copying the President:

       Per discussions that transpired during .                             .  staff
       meeting on         ,,25 JUN , it has been decided that it will not be in the
       best interest of the comDanv to Dursue Phase I1 funding- with NSF.
       However, '        w            i    l  l not object if you decide to enter
       into negotiations with another company to pursue the Phase I1 work as an
       independent c ~ n s u l t a n t . ~

However, according to the             officers, t h i t decision was reversed and
prepared the Phase I1 proposal for submission by .              5 From July 20 to 27, ,
           exchanged drafts of and comments on the Phase I1 proposal with the other
        officers, who believed it would be submitted on behalf of .          6



      O n July 27,       ,            submitted the Phase I1 proposal to NSF under the
name of ,                       listing herself as PI and AOR.'                   filled out
'       s address as her own home                              , . After the proposal was
submitted,             emailed another           officer, stating, "I'm so happy to tell you
that I submitted the phase I1 on time.     . . . Anyway, I hope it will be a great experience for
both of us to work on this project."s




                            #
       O n December 6,        , NSF notified            that the Phase I1 proposal was not
selected for award, but that          could submit comments for re vie^.^ O n December
9,      ,           , as the        AOR and using her             email address, requested
reconsideration of the            Phase I1 proposal by NSF.1° O n December 13,            ,
            received an NSF request for Technical and Commercial Response and revised
Commercial Plan." Also on December 13,                ,             incorporated
              , in   .I2 O n December 20,      ,            , submitted the Technical and
Commercial response to NSF using her             email address.13

       O n December 31,     ,             submitted a revised Commercial Plan to NSF,
using her       email address, and for the first time mentioned           :

                              is a minority, women owned, and 8(a) firm. - Since.
                 wishes to maintain its status/ autonomy as sole owners, a new spin-
         off company was formed in December           . This new company,
                               , was organized in            ."I4

This was untrue. First, a "spin-off' means a parent corporation transferring part of its
assets to an existing or newly-created subsidiary, and distributing the shares of the
subsidiary among its shareholders.I5 Second, this language implies the "spin-off' was
                       s '
formed in accordance with             "wishes," when in fact           did not disclose
anything about         to the other officials of . 1   6




15   See, e.g., http://dictionary.reference.con~/browse/spin-off~

l6   1
1                      In subsequent communications,                              took steps to have the         grant
                instead awarded to her own company,                            by deceiving NSF about the relationship
                of         to =:
I
i                                  Jan 10,     , NSF notified            that the          Phase 11 proposal was
                                   being recommended for award and requested additional budget information.17
I
I
                                   Jan 11,      ,           used her    email address to submit revised Budget
I                                  Impact, Travel Breakdown, Material and Supplies Breakdown, and revised
                                   consultant letter in support of the   Phase 11 proposal, with no mention of


                                   Jan 11 & 12,       ,             electronically submitted revised proposal budgets
                                   for .     l9
,   ,


                           . .-. .Jan 13,
                                                              I,'
i       .   ,   ..,    -
                  -<

                           .   ,               , NSF.sent .an.einail to     requesting financial documentation            '

                                                                                                                              -         ...p
                                                                                                                                          I : ,.. ,
                                                                                                                                                  '             ':
                                                                                                                                        .; 2;            .
                                                                                                                                        . .             . .
                                                                                                                                                ,   \          i:,

                                   for new award to ;     o    n an internal SBIR form, the program officer                       .:,                   i,2:



                                   designated      as the awardee.'"

                                   Jan 13,      , in response to NSF request for financial information on =,
                                              submitted an email to NSF (using her             email address as before)
                                                                           "
                                   stating:

                                          "[A] spin-off company,                       , was established to carry out
                                          all research and commercialization of this new technology. . . . I have to
                                          mention that the commercialization team member, facility, and
                                          addresslphone number will be the same for this spin-off company."2'

                                   However, the facility, address,, and phone number would be the same because she
                                   had submitted the proposal in the first d a c e with her home address and uhone
                                   number as those fo;            (unlike the Phase I proposal, which used
                                   actual address and phone number in '         )       .
                                                                                                             '        s
                           Jan 14,      ,            stated in an email, "I am comfortable to carryout this
                           Phase I1 research as PI either at this new comuanv or the orieinal comuanv
                                                                                                  I                           I


                           .                      " NSF replied, "If the Phase I1 work can be performed at
                                                                                                      /              (7               I




                           the proposing organization, then that is where it should be performed." l3

                           Jan 31,      ,            (using a        email address for the first time) stated, "I
                           believe that I had spoken too soon when I mentioned that I am comfortable with
                           performing the Phase I1 work at either organization. . . . All intellectual property
                           rights of the proposed technology (Phase 11) has already been assigned to
                                          and we could not go back and cancel this assignment to             ...
                           Since Phase I1 work can only beperformed at                     , therefore, we have
                           submitted all financial documentations in           name."14
                                                                                                              ,

                           However, these statements were false because                                      was the sole owner of
                           both her intellectual property rights and                               so she could have assigned the.           .                 .        .

    .                                                                                                      .  . .            , . .                         . > . ..
                                                                                                                                                           .                    , ;, .
                                                                                                                                                                                             .. ,.
                                                                                                                                            ....
        .,   .,
                                                                                                                                                 ...   '                                       ' .
.
                  <,
                  .    .   rights back to         if she so chose.
                                                                -1
                                                                                                                          J      ,'            ,
                                                                                                                                          < i..".,
                                                                                                                                                                            ,

                                                                                                                                                                                     .
                                                           .
                                            .,.       .,                                                                                                           ..
                                                  "   >
                                                                                                                                      .                    .
                                                                         .   :                                                                                                                   .
                                                                    'i

                                                               '.                                                                                                                        .


                           Based on               Jan 31 email, on                                     , NSF awarded a $499,999
                           SBIR Phase I1 grant to         effective                                   through            .15

                                        ,                           i received the initial payment of $ 125,000.26

                                       ,        submitted the first progress report and received the second
                           payment of $100,000 on              .17

                                        ,                              submitted to              a "letter . . . intended to confirm
                           my resignation                 . . . effective as of                  "-that   is, the day the Phase I1
                           award to                         started.18

                                        , NSF received an email from the President of
                           the successful completion of our Phase I SBIR-NSF project,
                           submitted a Phase 11 SBIR proposal. . . . This project was to be conducted under
                           the direction of            ], as our PI. Could you please provide me with an
               understanding of the award process as I now understand that the project was
               awarded to                    . . . 7,929
                                                   .
               The SBIR Office requested OIG to investigate-   the award to           and notified'
                    that no future payments would be made under the Phase I1 award until the
        issue was resolved.'O Both           and           provided documents to OIG and OIG
        conducted interviews with              and the other          officers. The President and
        another officer of           provided sworn affidavits, claiming that              did not
        have authority to transfer the Phase I1 proposal from          to          and
        concealed her negotiations with NSF from them.               declined to sign an affidavit.

        11.                   Position

                Throughout
                      -       this investigation             , and her legal counsel, provided
        documents, statements,' and arguments to present                 position on the transfer
                                                                                             .      of
                                                                                                    .
                                                                                                                              .         .
        t h e Phase I1 award:7fiom',          to        i . ~ In
                                                              '  her interview,  as well a s . written .' .    !             ..- .
                                                                                                                             . .,
                                                                                                                                    .   .
                                                                                                                                        i



;        statements and letters from her legal counsel,            presented the following primary                 .   :,:



         arguments:


                                                                                   ''m
        (1)              Officers decided she could pursue the Phase I1 award
               per the June 24,        , email in which         told her that
                    will not object if you decide to enter into negotiations with another company
               to pursue the Phase'II work as an independent consultant."
                                                                                                               '
              However, the other           officers disagree, stating that the decision was
        changed in July
        Furthermore,
                           which is why they worked with
                                                                                            P:
                                                                     o n the Phase I1 roposal.
                              did not submit the Phase I1 proposal outside of             she



              c
              0
        29

        30
        31
                       initially provided documents and arguments to this office in June           after the
        SBIR Office notified                  that further SBIR payments were suspended until the OIG
        investigation was complete.                                                  On July 10,

                                                                                                                                        1
    '
                agreed to a voluntary interview and drafted a four page affidzt with OIG investigators,
        but             refused to sign t'he statement under oath.
                                                                                                                                        1
        O n September 6,                      , through legal counsel, provided a statement containing a 14
        page narrative, 5 page chronology, and 47 attachments.
        Another letter from                   legal counsel was submitted to OIG on December 1,
                                                    On March 1,         another letter was submitted to NSF
        from the law firm representing               in the appeal of NSF's decision to terminate the Phase
        11 award.                                               I
submitted the proposal under the                              name arid communicated with NSF as the
        AOR.

(2)                              could not complete the research without her patented technology.

       In fact, the proposal submitted by             stated that        would use her
technology; it was              who licensedthe technology to her own company, and she
could have licensed it back to -.

 (3)                               had the authority to transfer the award from        to

                   concealed the award from s '             other officers and co-owners, in
order to keep it for herself. By doing so, she acted outside the authority of a
official. No corporate official has the authority to secretly divert a corporate opportunity.
                                                                                                    =
Corporate officers and owners have a fiduciary responsibility to act in the best interest of
                                                             > . .   .<
the company;and avoid self-dealing.
        :
            ..i
        :.        ,,
                  .   I   ..,~


 (4)               used "spin-off' in the common English usage to mean something that is
       derivative of an earlier work.

         As used in business, "spin-off' means a parent corporation transferring part of its
  assets to an existing or newly-created subsidiary, and distributing the shares of the
. subsidiarv among " its s'hareholders. and that is how NSF understood the term.32
  had no corporate connection with                                     kept the awardL..andits
  transfer to her new company secret from             's other oficers and co-owners.

111.   Department of Justice Assessment                        -                                    i


        Based upon the above facts, OIG concluded that             made several material
false statements to NSF. We believed that                violated both civil and criminal
statutes33and we therefore referred the matter to the U.S. Attorney's Office for the
District of        which accepted this matter for review.34




32 For example, on Jan 14,           the SBIR Program
                                                  -    Officer sent an email to CAAR and the
Division of Grants and Agreements, stating: "My advice to the PI is to carry out all research, at
.                       Later, for commercialiration following Phase 11, they can use the joint
venturehpin-off company as a vehicle."
3 3 18 U.S.C. § 1001, and 31 U.S.C. 8 3729(a)(2).

34 Assistant U.S. A t t o r n e y , Civil Division, and ,                   Criminal Division.
           After consideration of the evidence, this matter was declined for criminal
    prosecution based on the burden to prove beyond a reasonable doubt that
    knowingly and willing made false statements to NSF. Civil prosecution was also declined,
    despite             apparent wrongdoing:

           [I]t does appear that              failed to disclose important facts in
           conjunction with her application for Phase I1 grant funding from the
           National Science*Foundation. Unfortunately, there appears to be no real
           possibility of recovering the funds expended by                  and her
           "employee" husband, although I applaud your agency for acting quickly to
I          terminate the remainder of             grant due to her misrepresentations
           and apparent manipulation of the grant approval process.
                \

I
!          I understand that your office has decided to refer this matter to the proper
I          administrative authority for consideration of suspension or debarment

i
    -      proceedings against                and her company. While I regret that our
           office is unable to pursue successful civil proceedings at this time, I
           appreciate your agency taking the steps necessary to ensure the continued
           integrity of the grant application process, as the prevention of fraud is
           always in the best interest of the g~vernrnent.~'

    IV.    Previous NSF Administrative Action

          O n January 30,         , NSF notified               that the Phase I1 grant was
    terminated, stating:

           [Tlhis grant is hereby terminated due to the unauthorized transfer of the
           Phase I1 proposal from                          to             .
                    was not the recipient of the Phase I award; and it is neither a
           subsidiary nor a spin-off of the Phase I awardee. Therefore,
           does not qualify for an SBIR Phase I1 award.36

                       appealed the termination, and on July 13,            NSF deni'ed the
    appeal, stating:

1          [Tlhe Phase I1 SBIR award granted to                     was based on the
           NSF Grants Officer's reliance on                      apparent relationship
           (i.e., spin-of0 with the Phase I awardee,   .                   In fact, no
       such relationship existed. . . . [Tlhe Phase I1 grant
                                                       -     would not have been
       approved if the true nature of the relationship or lack thereof, between
                and         had been know to NSF.37

V.     Debarment

       A-.    Grounds for Debarment

        NSF has the authority to debar an individual or entity for "[v]iolation of the terms
of a public agreement or transaction so serious as to affect the integnty of an agency
program . . . ."38 Such a violation occurs when the individual or entity commits a "willful
violation of a statutory or regulatory provision or requirement applicable to a public
agreement or transaction. . . ."39 Furthermore, NSF has the authority to debar an
individual or entity for "[a]ny other cause of so serious or compelling a nature that it
affects [the person's or entity's] present r e ~ ~ o n s i b i l i t y . " ~ ~

       To obtain an NSF phase I1 SBIR award, a company mus; hsve been the recipient
of a'Phase I award. To obtain a Phase I1 award for her own company,            ,
made false statements to convince NSF that            was in fact a spin-off of the Phase I
awardee .           These willful false statements caused NSF to make an award to a
company that was not qualified to receive it under the requirements applicable to NSF's
SBIR program, warranting                debarment." In addition, her actions on behalf of
,         a company she served as a ;orporate officer; to deceive both her co-officers and
NSF in order to cause her own company to receive a federal grant to which              was
entitled, demonstrate a fundamental lack of business integrity and present responsibility,
also warranting debarment.42

       As the corporate entity that            used to carry out her misrepresentations in
this case, then and now fully and exclusively under               control,         should
also be debarred for 3 years.




37   7
38 2 C.F.R. 5 180.800(b).        ,

39 2 C.F.R. 5 180.800(b)(3).

40 2 C.F.R. 9 180.800(d).

41 2 C.F.R. 9 180.800(b)(3).

42 2 C;F.R. 5 180.800(d).
             B.   '   Burden of Proof

       In debarment actions, the burden of proof lies with NSF to demonstrate by a
preponderance of the evidence that cause for debarment exists.43 Here, the
preponderance of the evidence amply demonstrates that               willfully deceived
both her fellow officers of       and NSF in a manner that violated the requirements
for the SBIR program and reflected a lack of present responsibility. The same facts
demonstrate by a preponderance of the evidence that         through its President and
owner              , violated the terms of the SBIR program and lacks present
responsibility.

             C.       Relevant Factors

       The debarment regulation lists 19 factors that the debarring official may consider.44
Listed below are the factors pertinent to this case.

.    "   .            1.      Actual or Potential Harm or Impact45

                    and            actions caused actual harm because they caused NSF to
lose $225,000, and they deprived another entity of the Phase I1 award it would have
received but for her material misrepresentations.

                      2.      Role in W r ~ n g d o i n g ~ ~

                           , acting for          was solely responsible for all of the false statements
identified above.

                      3.      Acceptance of Re~ponsibility~~

                     has not accepted responsibility for her actions associated with this
matte;; as a result, neither has        the company she owns and controls.



             Neither                nor           has repaid NSF for the wrongfully acquired funds.

43 2 C.F.R. 3 180.850 & .855.
44 2 C.F.R. 9 180.860.

45 2 C.F.R. 3 180.860 (a).

46 2 C.F.R. 3 180.860 (0.

47 2 C.F.R. 9 180.860 (g).

48 2 C.F.R. 3 180.860 (h).
                                                                                     -
I
                                           il

           Although she never acknowledged wrongdoing,                , on her own behalf and
    as owner and President of              provided documents and written responses in the
                                                                                        J
    course of the investigation, and agreed to an interview with OIG investigators.

                    6.      Position Held by

          At the time the wrongdoing was committed,           was an officer of
    and became President and sole owner of       and PI and AOR on the Phase I1 award.


1                   7.      Organizational Action51
                  is solely owned by            , and she has not taken any action to cause
    the company to return the wrongfully acquired funds.

                    8.      Other Factors52.    ,   .
           There is no evidence that              diverted any of the misappropriated funds
    from this grant towards her own personal use or the personal use of others.

    VI.      Recommendation       -             ,


    Consistent with the need to protect the interests of the public and NSF, we recommend
    that NSF debar both            and                    for 3 years.




    "2    C.F.R. 9,180.860 (i).
    50 2 C.F.R. 9 180.860 (k).

    5 1 2 C.F.R. 9 180.860 (1).

    52 2 C.F.R. 9 180.860 (s).

           .-,
                                       NATIONALSCIENCE FOLINDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




     OFFICE DF THE
    DEPUM DIRECTOR




CERTIFIED MAIL -RETURN RECEIPT REQUESTED


President
                        -     .




                                                                                                            -
       Re: Notice ofPvoposed Debarment
                                                                                                                -
Dear             :

In       you submitted, on behalffo                          a Small Business Innovation Research
Phase ILproposal to the National Science Foundation ('NSF" or the "Foundation") entitled,
"                                                                                 ." You were
identified as the Principal Investigator on this proposal, which NSF fimded. As documented in
the attached investigative report prepared by NSF's Office of Inspector General ("OIG"), you, as
the President of                                      made false statements to NSF in connection
                                  .-
with this proposal.

In light of this misconduct, this letter serves as formal notice that the National Science                          -
Foundation ("NSF") is proposing to debar you and                from directly or indirectly obtaining   '       -
the benefits of Federal grants fora period of three years. During this period of debarment, you             -- --
and            will be precluded from receiving Federal financial and non-finacial assistance and
benefits under non-procurement Federal prQgrams and activities. In addition, you and
will be prohibited from receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations ("FAR"). Lastly, during the debarment period, you and
will be barred from having supervisory responsibility, primary management, substantive control
over, or critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government.
                                                                                              Page 2

Regulatory Basisfor Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

       (b)     Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)       A willhl failure to perform in accordance with the terms of one or more
                         public agreements or transactions; or


               (3)       A willful violation of a statutory or regulatory provision or requirement
                     ,   applicable to a public agreement or transaction
       ....

       (d)     Any other cause of so serious or compelling a nature that it affects your present
               responsibility.
                                                                                                           -
In any debarment action, the government must establish the cause for debarment by a                                 -
                                                                                                       -       --.
preponderance of the evidence. 2 CFR 180.850. In this case, you made false statements and                          -
representations in connection with a grant proposal submitted to the Foundation: Thus, your                    -
action supports a cause for debarmentunder 2 CFR l$0.800(b) i d 2 CFR 180.800(d).
Moreover, your false statements were a critical factor in NSF's decision to issue        the
Phase llaward, which           accepted. Thus, we are debarring            as well.


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where c~cumstanceswarrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for you and                               -
        for a period of three years.                                                                           y

                                                                                                           -       --

Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under these regulations, you and              have 30 days after receipt of this
notice to submit, in person or in writing, or through a representative, information and argument
in opposition to this debarment. 2 CFR 180.820. Comments submitted within the 30-day period                .-.     ,.-.-
                                                                                            Page 3
will receive full consideration and may lead to a revision of the proposed disposition. If NSF
does not receive a response to this notice within the 30-day period, this debarment will become
final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.

Should you have any questions about the foregoing, please contact               Assistant
General Counsel, at (703) 292-5054.



                                                    Sincerely,



                                                    Kathie L. Olsen
                                                    Deputy Director


Enclosures:
Inve'stigative Report
Nonprocurement Debarment Regulations
FAR Regulations



cc:    Holly Roth, Esq.
                                  NATIONALSCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINLA 22230




       OFFICE OF THE
     D E P U N DIRECTOR




VIA CERTIFIED MArWRETURN RECEIPT REQUESTED

Mr. Amandeep S. Sidhu
McDermott Will & Emery LLP
600 Thirteenth Street, N W
Washington, DC 20005

          Re: Debarment of                         and


Dear Mr. Sidhu:

On                  , the National Science Foundation ('WSF") issued to your clients,
                 and her company,                                         =Noticeof Proposed
Debarment, in which NSF proposed to debar her and               fiom directly or indirectly
obtaining the benefits of Federal grants for a period of three years. The Notice sets forth in detail
the circumstances giving rise to NSF's decision to propose debarment. Specifically, NSF
proposed                and           debarment for making Mse statements in connection with
the Phase I1 Small Business Innovation Research ("SBIR") proposal submitted to NSF in
In the Notice, NSF provided               with an opportunity to respond to the proposed
debarment.

On                       ,            filed a timely response to the Notice. In this response,
        urged NSF not to debar her or            for several reasons including: (1)             did
not make any false statements to NSF: (2)                 statements regarding the transfer of
intellectual property rights were true and accurate; and (3) NSF; not             , was in the best
position to ensure that the requirements of the SBIR program policy were met. As detailed
below, I am not persuaded by any of your arguments.

First,            made several representations to NSF that were designed to leave NSF with the
impression that h       a  d authorized              i form this new corporation to cany out the
                                                     to
research necessary fbr the Phase I1 grant. These misrepresentations are laid out in the OIG
investigation report. In her submission,              argues that she klly disclosed to NSF the
fact that         and-ere           separate entities. She also asserts that, despite characterizing
                          -



  Upon information and belief,                      has been dissolved.
        as a "spin-off' company o m s h e clarified for NSF that                               was formed to
continue the SBIR projects that were initiated a  t I disagree.

The record demonstrates that                   duped NSF into thinking t h a t a s aware of
             existence, and t h a t r o v e d of the transfer of the SBIR award to
For exainple, when                submitted the Phase I1 proposal purportedly on behalf o             m
as the principal investigator and authorized organization representative ("AOR"), she
inexplicably listed her home address and telephone number as-                  address and telephone
n ~ m b e r .Then,
              ~    in January       , after informing NSF about               existence, she indicated
that the. c6commercializatidnteam member, facility, and addresslphone number will be the same
for this spin-off company." I find that she used her personal address and telephone number, as
opposed t o t o ensure that it would not be necessary to change the contact information
of the Phase I1 awardee, thereby conveying the impression that a                d agreed to allow
          to take over the Phase I1 grant. Moreover, in the revised Commercial Plan that
         submitted on December 3 1,           , she explained that          a new "spin-off company,"
was formed b e c a u s e minority; women-owned, and 8(a) firm,"wishes to maintain its
statuslautonomy as sole owners." In addition, on January 14,             ,            indicated to NSF
that she was "comfortable to carry out this Phase I1 research as PI either at this new company or
the origihal company .                            " In each of these cases,
                                                                                                    m
                                                                                          statements to
NSF suggested t        h     a    t agreed to pennit            to continue with the award.
however, had not agreed to do so. Thus,                     suggestion that she clarified the true
relationship between            and-              not supported by the record.

I also gm not persuaded by your argument that your statements regarding the transfer of
intellectual property rights to          were accurate. On January 3 1,        , you informed NSF
that the Phase I1 work needed to be performed at            because "[all1 intellectual property
rights of the proposed technology (Phase 11) has already been assigned to
and we could not go back and cancel this assignment to              ..." In the affidavit you
included with your response, you indicate that your basis for making this representation was your
concern about "potential legal implications for misrepresentation and bad faith negotiations with
         Regardless of the status of your negotiations w i t h y o u owned the patent on the
technology and had the power to determine what to do with it. Thus, you could have cancelled
the assignment to             Thus, I find your representations in this regard were false and
misleading.

Lastly, your argument that NSF should bear responsibility for awarding the grant to            is
specious. In essence, you are suggesting that it was NSF's responsibility to discover your
fabrications prior to issuing the award, and that no administrative sanctions should be imposed
because you were successfhl in deceiving NSF into awarding              the grant. This is not a
compelling argument. Thus, I am issuing this Notice of Debarment.

Accordingly, you and         are debarred until                    Debarment precludes you
and         fiom receiving Federal financial and non-financial assistance and benefits under
a   In the Phase I p r o p o s a l , b u s i n e s s address and telephone number were used.
non-procurement Federal prdgrams and activities unless an agency head or authorized designee
makes a determination to grant an exception in accordance with 2-CFR 180.135. Non-
procurement transactions include gr'ants, cooperative agreements, scholarships, fellowships,
contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for specified use,
and donation agreements.

In addition, you and          are prohibited from receiving Federal contracts or approved
subcontracts under the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of
this debarment. 2 CFR 180.925. During the debarment period, you and               may not have
supervisory responsibility, primary management, substantive control over, or critical influence
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Government.

Should you have any questions, please do not hesitate to contact                Assistant General
Counsel, at (703) 292-8060.



                                                      Sincerely,

                                                     6-- A.               T           u
                                                     Cora B. Marrett
                                                     Acting Deputy Director
